Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Grant Administered by the Doe Fund, Inc.
New York, New York

Report No. GR-70-04-001


November 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Ready, Willing, and Able Criminal Justice Grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Doe Fund, Inc. (Doe Fund). The purpose of the grant is to: 1) increase literacy, office, and computer skills of participants, 2) reduce drug use, 3) increase employment of participants, and 4) eliminate barriers to legal employment. Between July 1, 2001, and June 30, 2003, the Doe Fund was awarded a total of $1,897,800 to provide the paid work and job skills training portion of the Ready, Willing, and Able Program.
We tested the Doe Fund's accounting records to determine if reimbursement claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
The Doe Fund has not fully complied with grant requirements. We found deficiencies in the timeliness of the Doe Fund's financial and progress reporting and in internal controls over the authorization and approval of reimbursements claimed for costs incurred under the grant. As a result, we question $24,832 in reimbursements, which is one percent of total grant funding.1

Two of the seven Financial Status Reports were untimely.


Three of the four progress reports were untimely.


Internal controls over the authorization and approval of grant expenditures were inadequate.


The Doe Fund did not provide support for 9 of the 53 sampled expenditures charged to the agreement.

These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings.